                               Office of the Inspector General
                       Corporation for National and Community Service


                                          Audit of
                     Corporation for National and Community Service
                           Grant Award No. 95LSGVA013 to
                                  Close Up Foundation

                                     Report Number 00-20
                                      August 18,1999




This report was issued to Corporation management on November 29, 1999. Under the laws and
regulations governing audit follow up, the Corporation must make final management decisions on
the report's findings and recommendations no later than May 29,2000, and complete its corrective
actions by November 29,2000. Consequently, the reported findings do not necessarily represent the
final resolution of the issues presented.
                                           Office of the Inspector General
                                  Corporation for National and Community Service

                                                      Audit of
                                  Corporation for National and Community Service
                                        Grant Award No. 95LSGVA013 to
                                                Close Up Foundation


                                                          Table of Contents




RESULTS IN BRIEF ......................................................................................................................   1

BACKGROUND ............................................................................................................................   2

OPINION ON COSTS INCURRED ..............................................................................................2

REPORT ON COMPLIANCE WITH LAWS AND REGULATIONS ........................................ 3

REPORT ON INTERNAL CONTROLS ....................................................................................... 3

SCHEDULE OF CLAIMED COSTS ............................................................................................. 5

NOTES TO THE SCHEDULE OF CLAIMED COSTS ................................................................
                                                                                                    6

APPENDIXES

           Close Up Foundation's Response.. ................................................... Appendix A

           The Corporation's Response.. ......................................................... Appendix B
                                                                                           CORPORATION
                                  Office of Inspector General                              FOR NATIONAL
                        Corporation for National and Community Service
                                            Audit of
                        Corporation for National and Community Service
                              Grant Award No. 95LSGVA0 13 to
                                     Close Up Foundation



On September 29, 1995, the Corporation for National and Community Service awarded a Learn and
Serve America school-based grant to the Close Up Foundation, Grant No. 95LSGVA013. We
performed an audit of the costs claimed ($237,532) by Close Up Foundation during the grant period
from October 1, 1995 through December 3 1, 1998. Close Up Foundation entered into subgrant
agreements with the El Paso and Canutillo Independent School Districts in Texas and the Giles and
Henry County Public Schools in Virginia. Close Up Foundation, however, was considered the
recipient of the grant.

The audit objectives were to determine if: (1) the amounts claimed by the auditee were allowable
under the grant agreement, its terms and conditions, and applicable Federal laws and regulations; (2)
the auditee's internal control structure was adequate to safeguard Federal funds; and (3) the auditee
had adequate procedures and controls to ensure compliance with applicable Federal laws,
regulations, and award conditions.

RESULTS IN BRIEF

We questioned $9,129, or approximately 4 percent, of the $237,532 claimed under the grant. The
majority of these costs, $8,187, was questioned because Close Up Foundation charged textbooks to
the grant at a "discounted retail" unit price in lieu of actual cost. The Notes to the Schedule of
Claimed Costs provides additional information on this and other costs questioned based on the
results of our audit.

The results of our tests of compliance regarding claimed costs disclosed a material instance of
noncompliance for which we are recommending corrective action. Close Up Foundation was unable
to provide supporting documentation for the costs of textbooks that were charged to the grant at a
"discounted retail" price and therefore failed to comply with OMB cost principles. OMB Circular
A-122, Cost Principles of Nonprofit Organizations, states that "to be allowable under an award,
costs must be adequately documented." The term "costs" includes only costs recorded in the
grantee's accounts that were paid by cash, check or other form of actual payment or costs accrued
in the normal course of business and recorded in the grantee's accounts.

We noted no matters involving the internal control structure and its operations that we consider a
reportable condition under the standards established by the American Institute of Certified Public
Accountants.


                                                                                       inspector General
                                                                                       1201 New York Avenue, NW
                                                                                       Washington. DC 2052.5
BACKGROUND

The Close Up Foundation is a nonprofit, nonpartisan organization established in 1970 whose mission
is to encourage responsible participation in the democratic process through civic education programs
and publications on government and citizenship.

The purpose of the award was to implement the Scholastic Excellence Through Service Program
(SETS). SETS was designed to join students in grades 7 through 12 with older adults in order to
solve community problems and teach civic behavior. SETS supports the citizenship curriculum for
the participating school districts: the Independent School Districts of El Paso and Canutillo in Texas,
and the Public Schools of Giles and Henry Counties in Virginia. Through community and school
partnerships, students learn about local government, community agencies, and ways for the students
to participate in the activities of these entities.

The Corporation's initial award of the grant to Close Up Foundation totaled $130,000 and covered
the period from October 1, 1995 through September 30, 1996. Awards for the second and third
program years totaled $202,650 and $100,410, respectively, and extended the program through
December 3 1, 1998.


OPINION ON COSTS INCURRED

We have audited the costs claimed by Close Up Foundation to the Corporation for National Service
for Grant No. 95LSGVA0 13 for the period October 1, 1995, to December 3 1, 1998. Costs claimed
are summarized in the Schedule of Claimed Costs. Costs claimed summarized in the Schedule are
the responsibility of Close Up Foundation management. Our responsibility is to express an opinion
on costs shown in the Schedule based on our audit.

We conducted our audit in accordance with generally accepted auditing standards and Government
Auditing Standards issued by the Comptroller General of the United States. Those standards require
that we plan and perform the audit to obtain reasonable assurance that the financial schedules are free
of material misstatement. An audit includes examining, on a test basis, evidence supporting amounts
and disclosures in the financial schedules. An audit also includes assessing accounting principles
used and significant estimates made by management, as well as evaluating the overall financial
schedule presentation. We believe that our audit provides a reasonable basis for our opinion on the
Schedule.

The Schedule is intended to present allowable costs incurred under the contract in accordance with
the applicable cost principles and contract terms and conditions. Therefore, it is not intended to be
a complete presentation of Close Up Foundation's revenues and expenses.
In our opinion, except for questioned costs of $9,129 in the Schedule of Claimed Costs, the financial
schedule referred to above presents fairly, in all material respects, costs claimed by Close Up
Foundation for the audit period October 1, 1995, to December 3 1, 1998, in conformity with the
award agreement.


REPORT ON COMPLIANCE WITH LAWS AND REGULATIONS

Compliance with applicable laws and regulations related to the grant is the responsibility of Close
Up Foundation management. As part of obtaining reasonable assurance that costs are free of
material misstatement, we performed tests of compliance with certain provisions of laws and
regulations related to the grant. Our objective was not, however, to provide an opinion on overall
compliance with such provisions. Accordingly, we do not express such an opinion.

The results of our tests of compliance regarding claimed costs disclosed a material instance of
noncompliance that is required to be reported under Government Auditing Standards. OMB Circular
A-122 states that, "to be allowable under an award, costs must be adequately documented." Close
Up Foundation charged the costs of textbooks to the grant in the amount of $10,690 based on a
"discounted retail" price rather than at its actual costs for the textbooks. Of that amount, Close Up
Foundation provided support for $2,503 in printing costs. We questioned the difference of $8,187.

We recommend that Close Up Foundation establish a procedure to identify and document all costs,
including the costs of textbooks, in accordance with applicable cost principles and award provisions.

We considered the above a material instance of noncompliance in forming our opinion on whether
Close Up Foundation's costs claimed under the grant for the period October 1, 1995, through
December 3 1, 1998, are presented fairly, in all material respects, pursuant to contract terms and
conditions and the applicable cost principles. Because of the material instance of noncompliance
for which we questioned costs as described in the Notes to the Schedule of Claimed Costs, our
opinion on the Schedule is qualified.


REPORT ON INTERNAL CONTROLS

Close Up Foundation management is responsible for establishing and maintaining an internal control
structure. In fulfilling this responsibility, estimates and judgments by management are required to
assess expected benefits and related costs of internal control structure policies and procedures. The
objectives of an internal control structure are to provide management with reasonable, but not
absolute, assurance that assets are safeguarded against loss fiom unauthorized use or disposition, and
that transactions are executed in accordance with management's authorization and recorded properly
to permit the preparation of financial schedules in accordance with generally accepted accounting
principles.
Because of inherent limitations in any internal control structure, errors or irregularities may
nevertheless occur and not be detected. Also, projection of any evaluation of the structure to future
periods is subject to the risk that procedures may become inadequate because of changes in
conditions or that the effectiveness of the design and operation of policies and procedures may
deteriorate.

In planning and performing our audit, we obtained an understanding of Close Up Foundation's
internal control structure. We obtained an understanding of the design of relevant policies and
procedures and whether they have been placed in operation, and we assessed control risk to
determine our auditing procedures for the purpose of expressing an opinion on claimed costs and not
to provide an opinion on the internal control structure. Accordingly, we do not express such an
opinion.

We noted no matters involving the internal control structure and its operations that we consider a
reportable condition under the standards established by the American Institute of Certified Public
Accountants. Reportable conditions involve matters coming to our attention relating to significant
deficiencies in the design or operation of the internal control structure that, in our judgment, could
adversely affect an organization's ability to record, process, summarize, and report financial data
consistent with the assertions of management in the financial schedules.


RESPONSE TO DRAFT REPORT

We provided a draft of this report to the Close Up Foundation and the Corporation. In its response,
Close Up Foundation agreed with the audit findings for labor costs, fringe benefits, and
administrative costs associated with these two cost elements. Close Up Foundation did not agree
with the audit finding on the cost of the textbooks. Close Up's response is included as Appendix A.
Close Up's responses to specific findings are included after each finding, as appropriate. The
Corporation's response to the draft report is included as Appendix B. In its response, the
Corporation stated that it reviewed the draft report, but did not have specific comments at this time.


This report is intended solely for the use of the Office of the Inspector General, the Corporation for
National and Community Service, and Close Up Foundation management.


G
Inspector Gener            J                         ~
Corporation for National and Community Service
Washington, D.C.
August 18,1999
                     SCHEDULE OF CLAIMED COSTS

              Corporation for National and Community Sewice
                        Grant No. 95LSGVA013 to
                           Close Up Foundation
                   October 1,1995, to December 31,1998



                                 Claimed       Questioned
                                  Costs          Costs        Notes

Labor

Payroll Taxes & Insurance

Academic Materials

Travel

Other Direct Costs

Subgrantee Reimbu, sables

                      Subtotal

          Administrative Costs

     CORPORATION FUNDS

         MATCHING FUNDS

              TOTAL FUNDS
NOTES TO THE SCHEDULE OF CLAIMED COSTS

Note 1 - Questioned Costs

A.    We questioned $545 of labor charged to the grant due to a data entry error. Thirteen hours
      were charged to SETS which should have been charged to another program. Therefore, we
      questioned the corresponding amount in labor costs.

B.     We questioned a total of $352 in fringe benefit costs charged to the grant. Of this, $136
       related to the questioned labor costs noted in A above. In addition, we computed the
       difference between the year-end fringe benefit rates as reported for the SETS program and
       compared it against the actual fringe benefits rates based on year-to-date costs. The result
       was a difference in the amount of $2 16 (net) based on our computation as follows:

                           Claimed                      Claimed         Actual
                            Fringe         Base of       Fringe         Fringe
                           Benefit         Labor        Benefits        Benefits   Questioned
            Year-end        Costs           Costs         Rate           Rate        Rate           Amount
           1996                $1,806         $7,370            24.5%     24.79%        -.29%         <$2 1>
           1997                $4,663        $17,740           26.28%     24.95%        1.33%           237
           1998                $2,276         $9,643            23.6%      23.6%           0%              0
           Total Amount (net)                                                                           $2 16
           Fringe Benefits Related to Questioned Labor Costs
           ($545 in Questioned Labor Costs x 24.95%)                                                     136
       1   Total Fringe Benefit Costs Questioned                                                1       $352    1
       Close Up Foundation used what it termed a "discounted retail rate" to charge the Corporation
       $10,690 for textbooks used in the SETS program. Close Up Foundation publishes these
       textbooks and makes them available for purchase by the general public at a retail unit price
       of $12.95. Close Up Foundation charged the textbooks to the Corporation at a "discounted
       retail price" of $9.95 per unit. Under the grant provisions, costs incurred under this grant
       must be shown in the Close Up Foundation's books or records and must be supported by
       source documents. However, the only actual costs recorded for these textbooks were $2,503
       for printing. We questioned the difference of $8,187 because Close Up Foundation was
       unable to provide supporting documentation for other costs it incurred for the
       textbooks. OMB Circular A-122, Cost Principles for Nonprofit Organizations, requires that
       costs must be adequately documented.

       Close Up Comments. Close Up stated that the textbooks were not developed under the
       terms of the grant and were provided to the Corporation at a discounted retail price, which
       is its usual and customary practice. Close Up Foundation also stated that other Government
       agencies have accepted this practice, and the practice was disclosed to the Corporation.
       Close Up also disagrees that that its methodology for charging the textbooks represents a
       material noncompliance with the applicable regulations.

       Auditor's Response. OMB Circular A-122 requires that costs be adequately documented.
       Close Up provided no additional information on the actual costs of the textbooks or other
                                                        6
     basis for determining its costs. Therefore, the questioned costs remain. Additionally, we
     consider the noncompliance to be material based on our observations that Close Up's
     departure from the documentation requirements of OMB Circular A-122 was not due to
     being unfamiliar with the requirements, but rather it was an intentional decision made
     because of the difficulties in establishing the actual costs of the textbooks, and because Close
     Up has informed us that they still have costs for additional textbooks that are as yet
     unclaimed on this grant. In addition, because Close Up has received a follow-on grant from
     the Corporation, the financial impact of the noncompliant methodology for the textbooks
     could be greater than the questioned costs disclosed in this report.

D.   We questioned administrative costs of $45 associated with the questioned costs discussed
     in Notes 2A and B above (administrative costs were not claimed on the textbooks discussed
     in Note 2C), as follows:

      Questioned Costs                                $897
      Administrative Cost Rate                   X-     5%
      Questioned Administrative Costs
         APPENDIX A


CLOSE UP FOUNDATION'S RESPONSE
                                                                                  CLOSE UP"
                                                                                   F   O    U   N   D   A   T   I   O   N




November 12, 1999

Luise S. Jordan, Inspector General
Corporation for National Service
1201 New York Avenue, NW
Washington, DC 20525

Dear Ms. Jordan:

We have reviewed the draft report on the results of your audit of the Corporation for National Service
grant with the Close Up Foundation, Grant Award No. 95LSGVA013, through December 3 1, 1998.

We do not take issue with the findings stated in paragraphs A (the erroneous labor hours charged),
B (the fringe benefits on these labor hours and rate variances), and D (the administrative cost associated
with these two items). With regard to paragraph C of your audit report, we strongly disagree that our
performance under this grant represents a "material instance of noncompliance" with the applicable
regulations.

The textbooks in question were not developed under the terms of this grant. Furthermore, the Program
Officer for the Corporation agreed to purchase the textbooks at a 30% discount off the retail price. At all
times there has been full disclosure with the Corporation's Grants and Program Officers.

It has been our standard and customary practice over the last 25 years, to include textbooks as a standard
and allowable cost in grant activities for the Department of Education, the Department of Interior, and
others. For many of our grant activities, the use of textbooks has been included (and accepted by the
various agencies) in determining the tuition rates for course offerings. In no case were we asked to
justify the cost of a textbook in terms of its development cost, production cost, etc.

Given our standard practice with respect to the use of textbooks on similar grants, the Government's
historical acceptance of our standard practice, and our expectation during the conduct of this grant
(i.e., the agreement of the Corporation's Program and Grants Officers), we believe it is appropriate, fair,
and equitable to reimburse Close Up for the costs of textbooks as submitted for this Grant.




@  vid Villani             !
$ice President, Finance and Administration




                                                                                           * /IN;L'IPJI *
                                                                                           EDUCATION FOR DEMOCRACY
        APPENDIX B


THE CORPORATION'S RESPONSE
                                  CORPORATION

                                  FOR N A T I O N A L




MEMORANDUM



DATE:         November 12,1999

TO:

                uce H. Cline, Director, Grants Man agemlent Office

CC:           Wendy Zenker, COO
              Wilsie Minor, Assistant General Counsel

SUBJECT:      OIG Report 00-20, Draft Audit of Corporation for National Service with
              Close Up Foundation


We have reviewed the aforementioned draft report and do not have specific comments at
this time. We will conduct a more comprehensive review and analysis during the audit
resolution process.
